1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

JENNER&B LOCK

LLP

Ishan Bhabha
Tel +1 202 637 6327
IBhabha@j enner.com

November 8, 2019

BY HAND DELIVERY
Scott S. Harris, Clerk
Supreme Court of tbe United States
One First Street, N.E.
Washington, DC 20543

I
r

Re:

No. 19-539, Office ofRecovery Services v. John R. Latham

Dear Mr. Harris:
I am counsel of record in tbe above-referenced case for Respondent John R. Latbam.
Respondent’s brief in opposition to tbe petition for a writ of certiorari is currently due November
25, 2019. I have only recently been engaged to represent Respondent, and, given other pressing
matters, more time is required to prepare the opposition. Respondent therefore respectfully
requests a first 11-day extension—up to and including December 6, 2019—for his brief in
opposition. Petitioner does not oppose this request.
Sincerely,

1^2^ 2i.
Ishan Bhabha
cc: Counsel of Record for Petitioner (via overnight mail)

CHICAGO

LONDON

LOS ANGELES

NEW YORK

WASHINGTON, DC

WWW.JENNER.COM

